Memorandum from the Office of the Inspector General



June 12, 2009

Anda A. Ray, WT 11A-K

FINAL REPORT – INSPECTION 2008-12283-01 – KINGSTON FOSSIL PLANT ASH
SLIDE INTERIM REPORT



Attached is the subject final report for your review and action. Your written comments,
which addressed your management decision and actions planned or taken, have been
included in the report. Please notify us when final action is complete.

Information contained in this report may be subject to public disclosure. Please advise us
of any sensitive information in this report which you recommend be withheld.

If you have any questions, please contact Greg R. Stinson, Senior Auditor, at (423) 365-2336
or Gregory C. Jaynes, Deputy Assistant Inspector General, Inspections, at (423) 785-4810.
We appreciate the courtesy and cooperation received during the inspection.




Ben R. Wagner
Deputy Inspector General
ET 4C-K

JAL:SDB
Attachment
cc (Attachment):
     Maureen H. Dunn, WT 6A-K
      Peyton T. Hairston, Jr., WT 7B-K
      Tom D. Kilgore, WT 7B-K
      John E. Long, Jr., WT 7B-K
      William R. McCollum, Jr., LP 6A-C
      Richard W. Moore, ET 4C-K
      Emily J. Reynolds, OCP 1L-NST
      Ralph E. Rodgers, WT 6A-K
      OIG File No. 2008-12283-01
            Tennessee Valley Authority
            Office of the Inspector General


Inspection Report


KINGSTON FOSSIL
PLANT ASH SLIDE
INTERIM REPORT




                     Inspection 2008-12283-01
                                 June 12, 2009
Office of the Inspector General                                                                         Inspection Report



TABLE OF CONTENTS
INTRODUCTION ....................................................................................................... 1

FACTUAL BACKGROUND ................................................................................... 2

    ASH PONDS ............................................................................................................. 2

    THE ASH POND SPILL ........................................................................................... 3

    TVA’S EMERGENCY RESPONSE TO THE ASH SPILL ................................... 5

    THE NATIONAL INCIDENT MANAGEMENT SYSTEM ...................................... 6

    TESTING THE AIR, WATER, AND ASH ............................................................... 7

    INFORMATION RELEASES AND MEDIA RELATIONS ..................................... 8

    REPARATIONS TO THE VICTIMS ........................................................................ 9

    RESTORATION OF THE COMMUNITY ............................................................. 10

CONCLUSIONS AND RECOMMENDATIONS ........................................... 12

APPENDICES

A. OBJECTIVE, SCOPE, AND METHODOLOGY

B. COMMENTS ON OIG QUESTIONS DATED MAY 8, 2009

C. MEMORANDUM DATED JUNE 8, 2009, FROM ANDA A. RAY
   TO BEN R. WAGNER




Inspection 2008-12283-01
Office of the Inspector General                                           Inspection Report



                                  INTRODUCTION
WHAT WE ARE TRYING TO ACCOMPLISH

Tennessee Valley Authority (TVA) is engaged in responding to one of the largest
spills in its history, the ash spill at Kingston Fossil Plant (KIF) in which 5.4 million
cubic yards of ash poured onto adjacent land and into the Emory River. The
purpose of this interim inspection is to evaluate the response of TVA to the
emergency while TVA is still responding, so that TVA can make any needed
adjustments to its response, and to independently assess the progress for the
public.

Specifically, this report focuses on (1) TVA's initial emergency response,
including implementation and utilization of the National Incident Management
System (NIMS); (2) TVA’s actions to quickly respond to the media; and
(3) reparations to the victims and restoration of the affected Roane County
community.

In coordination with the (1) Senior Vice President (SVP), Communications,
Government and Valley Relations, (2) SVP, Corporate Responsibility Division,
and (3) Executive Vice President & General Counsel, the SVP, Office of
Environment and Research (OE&R), provided comments on a draft of this report.
TVA management generally agreed with the report and plans to take actions in
regards to the recommendations. Specifically, management plans to:

•   Fully implement NIMS, ensure required NIMS training is completed, and
    evaluate the implementation of best practices identified by the Roane County
    Emergency Management Director. 

•   Document the protocol and verification process for the release of media
    statements and maintain verification that the appropriate processes were
    followed. 

•   Continue to work with the communities and local residents to improve the
    communications related to TVA's efforts with property acquisition and claims
    process. 

However, management did take issue with our characterization of inaccuracies in
media statements. Specifically, they stated, "We respectfully disagree with the
description of information being inaccurate or inconsistent 'in many cases,' given
the level of media inquiries, numbers of statements, interviews, briefings, etc.,
that was being handled; although 'in several cases' the initial information was
incorrect." As reflected in the report, we recognize the tremendous amount of
media inquiries TVA received regarding the KIF ash spill and made the change
suggested by management.

Inspection 2008-12283-01                                                            Page 1
Office of the Inspector General                                     Inspection Report



                                  FACTUAL BACKGROUND
ASH PONDS

Since the 1950’s, TVA’s KIF has been storing its coal ash in containment ponds at
the plant site. The plant and ash ponds are adjacent to the Emory River, close to
where the Emory runs into the Clinch and Tennessee rivers. Coal ash is what is
left after coal is burned in power generating plants. Fly ash, captured by
electrostatic precipitators, and bottom ash, taken from the boilers, are mixed with
water and pumped to the ash containment ponds. The plant produces 1,000 tons,
or 1,200 cubic yards, of coal fly ash daily when operating at full capacity.

The ash containment areas are enclosed by dikes, that rise several feet above
the Emory River. The dikes are inspected daily by plant personnel and annually
by TVA engineers. The Tennessee Department of Environment and
Conservation (TDEC) also inspects the ash pond dikes quarterly. In 2003 and
2006, small localized slope failures occurred on the dikes of the ash pond and
were addressed by TVA with the assistance of a consulting engineering firm.
The last TDEC inspection was in August 2008, when no deficiencies were found.
The last KIF ash pond visual inspection was Sunday afternoon, December 21,
2008. No problems were noted.




Inspection 2008-12283-01                                                      Page 2
Office of the Inspector General                                     Inspection Report



THE ASH POND SPILL

The events surrounding the ash pond spill at KIF have been widely reported in
the media and are fairly well-known at this time. We chronicle these events here
again to provide necessary context.

Just hours after the last daily inspection, on December 22, 2008, between
midnight and 1:00 a.m., an ash pond dike broke at KIF. The breach allowed
5.4 million cubic yards of coal ash sludge to pour over 300 acres of Watts Bar
Reservoir, including most of Swan Pond Creek embayment, the lower Emory
River, and reservoir shorelands. Approximately 8 of the 300 acres were
privately-owned property. The spill destroyed three homes and damaged 23
others. Roads, the rail line adjacent to the plant, and utilities were also
damaged. There were no fatalities or injuries caused by the ash spill.




Inspection 2008-12283-01                                                      Page 3
Office of the Inspector General   Inspection Report




Inspection 2008-12283-01                    Page 4
Office of the Inspector General                                        Inspection Report



TVA’S EMERGENCY RESPONSE TO THE ASH SPILL

At 12:40 a.m., Monday, December 22, a man trapped in his house, by ash
sludge, called 911. The Tennessee Valley Authority Police (TVAP) was notified.
At the same time, a TVA heavy equipment operator heard the 911 call on his
scanner and called his foreman, while a local resident called a TVA maintenance
manager. The maintenance manager called the Shift Operation Supervisor
(SOS), who went to inspect the ash pond and saw that the dike on cell #2 had
collapsed. The SOS finished calling the notification matrix of the KIF Emergency
Response Plan (ERP). In the meantime, others were being contacted about the
spill. The KIF ERP was deployed by the shift supervisors. The Incident
Command Center was established at the plant by 2:30 a.m. By 2:45 a.m., the
Chief Executive Officer (CEO), Chief Operating Officer, Chief Administrative
Officer, and a media specialist had all arrived at the plant.

                     Ash Ponds to Left Center, Failed Dike Center
                    Train Stuck in Ash at Base of Hill, Center Right
                                  December 23, 2009




Before dawn, the EPA, U.S. Coast Guard (USCG), Norfolk Southern railroad (to
reroute trains), and the Tennessee Emergency Management Agency (TEMA)
had been notified; five boats were in route for environmental sampling of the
river, a helicopter was airborne to survey the scope of the spill, an Incident
Command Center was activated at KIF; the Agency ERP was activated,
Emergency Operations Commands were set up in Knoxville and Chattanooga,
and the Roane County Emergency Management Agency representative was in
the Command Center on-site. The first light helicopter survey reported at
7:40 a.m. that the ash spill flow had stopped.


Inspection 2008-12283-01                                                         Page 5
Office of the Inspector General                                        Inspection Report


By 9:00 a.m. that morning, a train engine stuck in the ash was being dug out and
pulled free, hydraulic engineers were on-site evaluating the skimmer wall and
monitoring water intake for the coal plant, the gas line for the area was being
shut off, and several helicopters were airborne taking photos and evaluating the
damage.

                  View from East of Ash Pond after Dike Failure
                    Kingston Plant is to the Left Background




The first day was full of activity by TVA and a variety of local, state, and federal
agencies, checking on the safety of people in the area, containing and evaluating
the damage, and planning recovery. TVA took samples of air, water, and ash
that were analyzed for contaminants by a Maryville, Tennessee, lab. The USCG
closed river traffic, and by evening EPA and the USCG were on-site. TVA
released the first of their daily fact sheets and posted it to the Web site.

The same day the Unified Command Center was established to coordinate the
federal, state, and local response to the coal ash spill. Agencies included were
EPA Region 4, Roane County Emergency Management Agency (EMA), TDEC,
Tennessee Department of Health, and the USCG.

THE NATIONAL INCIDENT MANAGEMENT SYSTEM (NIMS)

Homeland Security Presidential Directive (HSPD)-5 directed the development
and administration of the NIMS. NIMS provides a systematic, proactive
approach to guide departments and agencies at all levels of government,
nongovernmental organizations, and the private sector to work seamlessly to
prevent, protect against, respond to, recover from, and mitigate the effects of
incidents, regardless of size, location, or complexity, in order to reduce the loss

Inspection 2008-12283-01                                                         Page 6
Office of the Inspector General                                     Inspection Report


of life and property and harm to the environment. NIMS provides a template for
the management of incidents. All federal departments and agencies are required
by HSPD-5 to adopt NIMS and use it in their individual incident management
programs.

We reviewed KIF's ERP, and it had been updated to incorporate terminology and
aspects of NIMS. However, as the emergency response unfolded, concerns
were raised surrounding communication with local emergency personnel. The
Roane County Emergency Management Director (Director) reported the following
issues before the Environmental and Public Works committee on January 8,
2009:

•   Immediately following the event, it was difficult to form a cohesive Unified
    Command with TVA due to the fact TVA was not using the Incident Command
    System as defined by the NIMS.

•   There does not exist for the TVA Fossil Power Division the same stringent
    emergency preparedness and planning program as does for TVA’s nuclear
    and hydroelectric facilities.

•   A comprehensive hazard analysis and risk assessment had not been
    performed at the TVA Kingston Fossil Plant.

During the initial emergency response efforts, senior management also
recognized implementation concerns with NIMS and brought this to the attention
of the CEO. On December 25, 2008, the decision was made to bring in a
consultant to assist with a complete transition to NIMS. TVA hired O'Brien's
Response Management to assist in NIMS implementation and with the
emergency response phase of the event. O'Brien was present until January 12,
2009, when TVA transitioned into the project phase of the emergency phase.
The total cost of O’Brien’s Response Management services was approximately
$510,000.

TESTING THE AIR, WATER, AND ASH

TDEC, along with EPA, DOE, the Oak Ridge National Laboratory, Tennessee
Wildlife Resources Agency, the U.S. Army Corps of Engineers, as well as TVA,
have all been sampling, testing, and analyzing the air, water, and ash sludge for
environmental and health risks. These agencies share information with TVA and
post their own data to their Web sites. TVA posts its own information, plus it
posts links to other agencies. Amid fears and claims circulating in the public
arena regarding the potential health hazard of the ash spill, TDEC found and
posted on its Web site that the spill has not impacted the air and water, both of
which are safe, and the ash does not present an immediate threat to human
health. The risk identified by TDEC is that, when the ash dries out and becomes

Inspection 2008-12283-01                                                      Page 7
Office of the Inspector General                                                           Inspection Report


dust, the particles are so fine that they can be inhaled and difficult for the body to
exhale or flush out. For that reason, TVA is taking dust control measures
including application of grass seed, fertilizer, straw, and sealants to cover
exposed ash surfaces. Furthermore, TDEC and the Tennessee Department of
Health have reported on their Web sites that there should be no adverse health
effects from accidentally and occasionally ingesting the ash. However, TDEC
encourages everyone to avoid contact with coal ash and to wash after coming in
contact with the ash.

INFORMATION RELEASES AND MEDIA RELATIONS

From the very first response to the ash spill, TVA was releasing information to
other agencies and the public. A TVA media spokesperson was one of the first
people notified of the spill, and he was on the scene at Kingston by 2:45 a.m.
Contact was initiated with local and regional agencies and within the first day
TVA started supplying daily fact sheets to the media and posted them on its Web
site. On December 28, a Joint Information Center (JIC) opened, coordinating the
information released by the various response agencies.

That day the JIC began releasing press releases. On December 31, a letter from
the CEO to all Roane County households was published in the Roane County
News. On December 30, an 800 number for landowners was activated. On the
same day, TVA representatives met with 14 homeowners to listen to concerns
and answer questions. On December 31, there was a press briefing, in which
the press was introduced to the Incident Command Center. On January 2, TVA
met with 16 homeowners at a home on Swan Pond Circle. On the same day,
15 print and video journalists attended a JIC briefing. On January 4, media
representatives were on-site to see a helicopter seeding the ash, and helicopter
seeding tours were provided for the media. On the same day, the CEO, the
Senior Vice President of the Office of Environment and Research (OE&R), and a
media specialist began giving planned media interviews for two days. The above
is a sample of efforts made to disseminate information to the public, receive
information from those affected by the spill, and be accessible to the media.

Since the spill, articles have been carried in Valley publications and nationwide
media outlets including, CNN, Bloomberg, New York Times, Washington Post,
and energy publications. Ongoing media interest pertains to offsite storage
plans, history of ash pond problems, dike failure root cause, health plans,
property purchases, and Roane County’s long-term recovery. The sheer volume
of media requests was a key challenge for TVA1.



1
    In a typical year, TVA receives approximately 1,500 media calls, gives about 250 interviews, and more
    than 3,000 news articles are published about TVA.


Inspection 2008-12283-01                                                                            Page 8
Office of the Inspector General                                    Inspection Report



REPARATIONS TO THE VICTIMS

TVA started by addressing immediate needs by providing housing, gift cards for
food and clothing, cellular telephone service, and even money to replace
Christmas gifts. By 11:20 a.m. on that first morning, 50 people had been
identified as needing temporary housing from 15 affected homes. TVA also
provided bottled water to those in the community whose water supply had been
disrupted.

To assist in addressing the needs of the victims, TVA formed the Community
Outreach Team (COT). The COT consisted of seven retirees, three KIF
employees, and two administrative assistants. TVA also named a Community
Outreach Coordinator (COC) whose primary role was to listen to the citizens of
Roane County and to address their concerns. To communicate with the citizens
of Roane County and to address immediate needs, TVA made door-to-door
deliveries/visits, conducted a series of homeowners' meetings, placed
informational ads in various media outlets, provided a recovery update telephone
line, opened a community outreach center, and provided e-mail updates. TVA
continues to make visits, hold meetings, and provide e-mail updates to those who
have that option available. During the first two months following the spill, the
community outreach center worked with more than 600 families. According to
the COC, the outreach center continues to be open from 2 p.m. - 6 p.m. daily to
answer any questions and to provide community needs assistance.




Inspection 2008-12283-01                                                     Page 9
Office of the Inspector General                                      Inspection Report


In addition, TVA developed a process for the acquisition of land and personal
property that has been affected by the ash spill or will be affected by the
recovery. If a parcel of land is to be acquired, TVA requires two independent
appraisals of the property. The highest appraised value of the property will be
the one used by TVA in determining what amount to pay the owner. In the case
that there is a significant difference between the two appraisals, TVA will pay for
a third independent appraiser of the owner's choice to cast the deciding vote.
The only stipulation is that the final appraiser be a Member of the Appraisal
Institute (MAI) certified. It should be noted that TVA has offered to buy some
affected properties, but the individuals have opted to stay. Once the fair market
value is established, TVA writes the owner a check for that amount. Additionally,
if there is to be any compensatory payments, it will be paid at this time.

In conjunction with the process, the TVA Board approved by notational action the
following item: “Approval of delegation of authority to the Chief Executive Officer
to approve the settlement of any claim or litigation arising from the failure of a
coal ash containment pond at the Kingston Fossil Plant.” According to
supporting documentation, this action was done in order to expeditiously provide
relief to all persons with valid claims against TVA.

RESTORATION OF THE COMMUNITY

TVA has stated its intention to make the Kingston and Roane County community
better than it was before the ash spill. TVA has asked the community to prioritize
suggestions for how TVA can improve the community. In the meantime, TVA
continues to work on recovery projects, such as dredging the Emory River,
evaluating ash removal options, taking steps to keep ash dust to an insignificant
minimum, and even cleaning of personal mailboxes.




Inspection 2008-12283-01                                                     Page 10
Office of the Inspector General                                 Inspection Report



                             Dredging of Ash from Emory River




                Before and After Removing Dust from Mailbox




                                            




Inspection 2008-12283-01                                                Page 11
Office of the Inspector General                                       Inspection Report



                       CONCLUSIONS AND RECOMMENDATIONS

We recognize that TVA will not be able to satisfy everyone in their efforts to
address the damage the Kingston spill caused. Plaintiffs in pending litigation, for
example, are not likely to ever applaud TVA’s efforts to address their claims.
TVA has multiple stakeholders beyond the residents of Roane County and
addressing those varied interests is not a simple matter.

TVA HAS NOT IMPLEMENTED NIMS IN ACCORDANCE WITH HSPD-5
WHICH HAMPERED COMMUNICATIONS AND DELAYED CERTAIN
EMERGENCY RESPONSE ACTIONS FOLLOWING THE SPILL

As discussed above, KIF had an ERP that included terminology and aspects of
NIMS as defined by HSPD-5. However, the KIF ERP was only used immediately
following the spill. After ascertaining the magnitude of the spill, TVA executive
management made the decision to implement the Agency ERP (AERP). TVA’s
current AERP dated February 25, 2008, states, “TVA commits to modify ERPs to
facilitate compliance with NIMS.” However, in 2005 TVA submitted a NIMS
Implementation Plan to the Department of Homeland Security (DHS). The plan
included a timeline for NIMS to be fully implemented at TVA by March 2006. Key
aspects of the Implementation Plan included training and modification of the ERPs.
Specifically, the plan stated, “The AERP, as the agency umbrella plan, must be
modified to adopt NIMS principles and language.” As of today, these aspects have
not been completed. Below is a screenshot from TVA’s Tier 2 online training
module, which shows TVA’s commitment to NIMS implementation:




Inspection 2008-12283-01                                                      Page 12
Office of the Inspector General                                        Inspection Report


For the first few days following the spill, the emergency response was managed by
four TVA executives. Per HRIS documentation, all four executives had not
completed NIMS training as required by TVA. Even though required officials had
not taken the training, OE&R personnel indicated that the existing training was
weak and needed improvement. As TVA began working with the various other
agencies in coordinating operations and information, TVA’s lack of familiarity with
NIMS terminology and concepts was an obstacle. The local county emergency
management representative said TVA was speaking a “different language”
because they were unfamiliar with NIMS. We were told TVA executives had to
“google” key NIMS terms and concepts. As previously noted, TVA hired O’Brien’s
Response Management to assist in NIMS implementation and with the emergency
response phase of the event. TVA and local executives reported that once TVA
brought in O’Brien, the emergency response went a lot smoother. O'Brien helped
TVA speak the right “language” and manage the emergency response.

The Roane County Emergency Management Director (Director) said in an
interview with OIG representatives that it took too long to get all the information
he needed to make operational decisions; specifically, (1) environmental data
detailing the properties of the ash and (2) an engineering assessment of the
stability of the remaining dikes at Kingston. The Director estimated that TVA’s
inability to immediately work the NIMS plan resulted in approximately a 12-hour
delay in lifting the evacuation order and a similar delay in disseminating
requested information about safety, health, and environmental concerns.

Based on our interviews and review of documentation, quality NIMS training and
changes to the ERPs would improve communications with other agencies should
TVA encounter another emergency situation.

The Director provided two emergency management best practices he felt would
improve TVA’s emergency management. The two best practices identified were
(1) a comprehensive emergency management position at the executive level and
a dedicated emergency management coordinator at each site, and (2) a
comprehensive hazardous analysis and risk assessment for all TVA owned and
operated facilities that would be made available to the local community. As
stated above, the Director reported to the Environmental and Public Works
committee a comprehensive hazard analysis and risk assessment had not been
performed at the TVA Kingston Fossil Plant.




Inspection 2008-12283-01                                                       Page 13
Office of the Inspector General                                        Inspection Report



Recommendations
TVA management should:

(1) As previously committed, consider taking all necessary actions needed for full
    implementation of NIMS including, but not limited to, modifying all ERPs to
    include NIMS principles and language.
(2) Ensure employees complete all emergency response training as required by
    TVA and NIMS.
(3) Consider implementing the best practices identified by the Director.

Management's Response - TVA management agreed with our
recommendations. Specifically, in response to our recommendations,
management plans to (1) review all ERPs to ensure appropriate NIMS principles
and language is included; (2) ensure employees complete the required training
as appropriate, through use of TVA's on line Environmental Compliance and
Awareness Training Assessment (ECATA) system; and (3) evaluate the
implementation of best practices identified by the Roane County Emergency
Management Director.

(The complete text of the comments provided by the SVP, OE&R, is provided in
Appendix C.)

Auditor's Comments - We concur with TVA management's actions or planned
actions.

TVA’S ACTIONS FOR RESPONDING QUICKLY TO MEDIA AND PUBLIC
INQUIRY RESULTED IN RELEASES OF INACCURATE AND INCONSISTENT
INFORMATION AND SUBSEQUENT PUBLIC CRITICISM WHICH CAUSED
REPUTATIONAL HARM

As discussed above, TVA’s environmental event has received unprecedented
media coverage. In the immediate aftermath, one of TVA’s key challenges was
to provide information regarding the impact of the spill to the public as quickly as
possible. As a result, information that was provided to the media was in several
instances determined to be inaccurate. For example, as was widely published in
the media, TVA initially reported that 1.7 million cubic yards of wet coal ash had
spilled from an ash pond containing 2.6 million cubic yards. This spill amount
was later changed to 5.4 million cubic yards. According to TVA management,
initial estimates were done based on historical records before an aerial survey
could be done to determine the actual amount. TVA was trying to respond to
initial questions about the magnitude in a timely manner.




Inspection 2008-12283-01                                                       Page 14
Office of the Inspector General                                             Inspection Report


Other statements made to the media by TVA that have received criticism and
resulted in reputational harm include:

•    In an article on December 24, 2008, TVA stated its environmental team had
     not encountered any dead fish. A December 26, 2008, article stated
     hundreds of fish were floating dead downstream from the plant. TVA later
     acknowledged there were dead fish.

•    A “Talking Point” paper which edits were mistakenly distributed to some
     media sources created criticism in the media that TVA was “spinning.” Some
     of the key edits questioned by the media included:

        Changing "Catastrophic" to sudden accidental release

        Removing "risk to public health and risk to the environment" as a reason
         for measuring water quality and the potential of an "acute threat" to fish

        Reworking the description of fly ash to note it mostly "consists of inert
         material not harmful to the environment," while references to "toxic metals"
         in the ash were moved to a section on water sampling

•    TVA has been cited in articles for downplaying the environmental and health
     impacts of the ash spill. For example, a December 25, 2008, article stated,
     "The Tennessee Valley Authority has issued no warning about the potential
     chemical dangers of the spill, saying there was as yet no evidence of toxic
     substances. Most of that material is inert." While in contrast, a document
     prepared for members of the U.S. House of Representatives Subcommittee
     on Water Resources and Environment by its staff stated the coal ash at the
     KIF site has the potential to cause a number of environmental and human
     health impacts.

Our review of media statements identified other statements that contain
inaccurate or inconsistent information. For example:

•    Are the Ash Ponds safe? A TVA spokesperson was quoted as saying,
     “These ponds are appropriately managed, and there are not any integrity
     problems;”2 while KIF Plant Manager said “Until we understand what caused
     this failure, it will be speculation to say that they’re [ash ponds] at risk or not.”3
     Furthermore, TVA has hired an engineering firm to inspect all ash ponds for
     distress and that firm supposedly will address this issue with more credibility. 
      


2
    The Chattanooga Times Free Press, online edition, January 8, 2009.
3
    PBS Online NewsHour interview broadcasted on February 2, 2009.


Inspection 2008-12283-01                                                            Page 15
Office of the Inspector General                                               Inspection Report



•     Was the dike failure connected to the earlier leaks? A TVA spokesperson
      is quoted saying that the earlier 2003 and 2006 leaks “were not related to last
      month’s spill and were in a different area from the section that TVA officials
      believed caused the breach.”4 In contrast, the CEO said we don’t know until
      we finish the failure investigation and that he was interested in determining if
      the mechanism and the location were the same as the previous leaks.5  
       
•     Will TVA pay for health care required because of the spill? The SVP of
      OE&R and the CEO said that it was too early to say whether TVA would
      cover health-care expenses if a link can be established [between illnesses
      and the coal ash].6 This is in contrast to the CEO’s congressional testimony,
      “We are committed to do a first-rate job of remediation of the problems
      caused by the spill,”7 and the SVP of OE&R saying “We have committed to
      making things right for the people in the area, and that’s what we will do.”8 A
      TVA spokesperson has also been quoted as saying “We have committed to
      making things right for the people of Roane County and that’s what we’ll do.”9

•     Will ratepayers pay for the costs of the ash spill? An Associated Press
      article noted that TVA officials said the cost of the cleanup will be borne in the
      electric rates of the 9 million consumers TVA serves across Tennessee and
      parts of Alabama, Kentucky, Mississippi, Georgia, North Carolina, and
      Virginia.10 Subsequently, the CEO said he could not estimate how much of
      the cost to clean up the spill would be borne by TVA ratepayers. The same
      article stated that a TVA director included raising rates as one of several
      options for covering the cost of cleaning up the spill.11 Later, the CEO stated
      he did not expect a rate increase to help cover the cost of the Kingston Ash
      spill.12

•     Did TVA overstate its efforts in getting independent test results? A TVA
      spokesman was quoted as saying that in addition to TVA, TDEC, and EPA
      sampling methodologies, TVA is also obtaining independent sampling.13
      However, a TVA Environmental Project Manager stated to the Office of the
      Inspector General that TVA had not sought out any third party testing.


4
     Knoxville News Sentinel, January 6, 2009.
5
     Testimony given before the Congressional Environmental and Public Works Committee,
     January 8, 2009.
6
     Tennessean.com, April 1, 2009.
7
     Testimony given at the Congressional hearing on January 8, 2009.
8
     Environmental News Service, March 9, 2009.
9
     Volunteertv.com, March 4, 2009.
10
     Published January 13, 2009.
11
     Knoxvillebiz.com, February 14, 2009.
12
     NewsChannel5.com, February 18, 2009.
13
     New York Times, January 1, 2009.


Inspection 2008-12283-01                                                              Page 16
Office of the Inspector General                                        Inspection Report


While TVA management has taken the position that this information was
reviewed for factual accuracy, these incidents emphasize the need to ensure that
the information provided in media settings is accurate.

TVA’s Comments About Apparent Inconsistencies in Media Statements

The Senior Vice President (SVP), Communication, Government and Valley
Relations (CG&VR), was asked to respond to these apparent inaccurate or
inconsistent statements and TVA’s vetting process. Her full response is attached
to this report as Appendix B. To summarize it, TVA’s media relations specialists
are available to respond to media inquiries 24/7, and in a typical year take 1,500
media calls, hold 25 news conferences, and arrange 250 interviews. More than
3,000 articles about TVA are published each year. The vetting process is
covered in two steps by TVA staff. First, information is gathered from an internal
TVA source responsible for the program or topic, and the draft is prepared. Then
staff members request reviews of the draft from subject-matter experts and
executives with oversight responsibility. Interaction between staff and members
of the media is documented daily, and media coverage is reviewed daily. Even
with significant preparation and fact-checking, questions from the media,
particularly in a live setting, occur in real time and are often unanticipated. While
we strive to be as prepared as possible and to provide accurate, timely
responses, each interview is unique and each news report is unique as well.

In her response to the above specific references to inconsistent statements,
again set out in full in Appendix B, the SVP of CG&VR states that when the
statements are reviewed in the context in which they were given, there is no real
inconsistency. She also notes that in retrospect, in some cases, statements
could have been made more clear or qualified.

Recommendation
To avoid accusations against TVA of engaging in defensive “spin,” TVA should
consider establishing a clearly defined protocol that requires verification from
more than one source before releasing a statement to the media. TVA should
scrutinize press releases to determine if enough information is available to issue
a reliable statement. The test for TVA press releases should be, “Is it the
transparent truth?” We also recommend that documentation be maintained to
verify that this process was followed and the media statement was approved by
an appropriate TVA official.

Management's Response - Overall, management agreed with the OIG's
recommendation on the importance of protocols and verification processes prior
to the release of media statements. Specifically, in response to our
recommendation, management stated TVA has procedures in place for
processing media requests and developing and reviewing documents for release.
Management is increasing the amount of documentation kept as products go

Inspection 2008-12283-01                                                       Page 17
Office of the Inspector General                                      Inspection Report


through the internal review cycle. Management plans to document the process,
and maintain verification that the appropriate processes were followed.

However, management did state, "We respectfully disagree with the description
of information being inaccurate or inconsistent 'in many cases,' given the level of
media inquiries, numbers of statements, interviews, briefings, etc., that was being
handled; although 'in several cases' the initial information was incorrect."

(The complete text of the comments provided by the SVP, OE&R, is provided in
Appendix C.)

Auditor's Comments – As reflected in the report, we recognize the tremendous
amount of media inquiries TVA received regarding the KIF ash spill and made
the change suggested by management. We concur with TVA management's
actions or planned actions.

TVA HAS RESPONDED EFFECTIVELY TO VICTIMS IN THE AFFECTED
AREA, HOWEVER, FAILURE TO COMMUNICATE THE CLAIMS POLICY AND
DECISIONS IN A TIMELY MANNER INCREASED SETTLEMENT
EXPECTATIONS FOR SOME

TVA has effectively responded to the needs of the individuals and communities
impacted by the spill. Some of TVA’s key actions to date include: (1) meeting
the immediate needs of affected individuals, (2) working with the communities to
establish a Long Term Recovery Committee and the Alliance Hauling contract,
and (3) acquiring impacted properties. However, failure to communicate the
claims process in a timely manner increased settlement expectations for some.

Immediate Needs

As previously stated, TVA addressed immediate needs by providing housing, gift
cards for food and clothing, cellular telephone service, and cash to replace
Christmas gifts. Specific actions included:

•   Reserving 30 hotel rooms;

•   Providing Visa and restaurant cards for meal purchases;

•   Purchasing cell phones for residents whose phone service was disrupted;

•   Having insurance representatives assess damages;

•   Moving mailboxes to address concerns caused by increased traffic;



Inspection 2008-12283-01                                                     Page 18
Office of the Inspector General                                          Inspection Report



•   Cleaning roads, driveways, and mailboxes in affected areas;

•   Installing 10,900 feet of safety fence along the shoreline to protect pets and
    children;

•   Delivering Tennessee Department of Health information about the health of
    the reservoirs around the affected areas to approximately 20 marinas and
    campgrounds; and

•   Supporting local utilities with restoration of electric, gas, and water lines, and
    hooking up water lines to other affected residents.

Restoration of the Community

TVA is also addressing the larger, community-wide needs. TVA has stated it will
make the community better than it was before the spill. While community leaders
feel TVA is doing a good job, they are quick to point out that it is still early in the
recovery process, and TVA needs to continue to work with the community. Two
areas specifically highlighted include working with the community to establish
(1) the Long Term Recovery Committee and (2) the Alliance Hauling contract.

The Long Term Recovery Committee is composed of half elected official and half
concerned citizens. The Committee is working with TVA to prioritize the
community wish-list. To make the community whole, TVA has received
numerous requests for improvements which are forwarded to the committee.
The Committee is tasked with determining the improvements of greatest
importance to the affected communities. TVA remains challenged by the task of
balancing on the one hand what is appropriate for restoring and improving the
community, and on the other hand, being a good steward of the costs charged to
the ratepayers of the rest of the Valley.

Following the spill, concerns were raised to local officials regarding TVA’s use of
contractors from outside the area. Contractors in the Kingston area felt that
because they had been impacted by the spill, they should have the opportunity
and be given priority to perform work as part of the recovery. TVA worked with
local officials and contractors to establish the Alliance Hauling contract, which
was a consortium of local haulers, to ensure local participation in the clean up.
The Tennessee State Representative for the Kingston community said this had a
positive economic impact and helped TVA’s image in the community.

Acquiring Impacted Properties

As of April 7, 2009, TVA has acquired 70 tracts of land that encompasses
approximately 225 acres and has spent about $20.1 million in the acquisition of
properties in the affected area. TVA has developed a list of additional properties

Inspection 2008-12283-01                                                         Page 19
Office of the Inspector General                                        Inspection Report


that are being evaluated for acquisition. For those outside the designated
affected area, property owners may request that their property be acquired by
TVA and agency personnel will evaluate the merits of the request on a case-by-
case basis. These property owners must show a direct adverse affect to the
value of their property due to the ash spill. TVA continues to have the challenge
of what is deemed to be affected. TVA recently sent "no purchase," “deferred,”
and "diminished value" letters to 342 claimants. Specifically:

•   TVA sent 189 "no purchase" letters which stated, "In reviewing your request,
    we considered whether there is physical damage to your property, the
    location of your property in relation to the ash spill, and the location of your
    property with respect to areas impacted by current recovery efforts. Based on
    our review of these criteria, we have found no reason for TVA to purchase
    your property or offer compensation for any diminished value of your
    property."

•   TVA sent 18 "deferred" letters which stated, "We will not know if or to what
    extent your property will be impacted until the long-term recovery plan is
    completed. Accordingly, TVA will not, at this time, offer to purchase your
    property or respond to your claim for diminished value. We will reconsider
    your request and make a final decision with respect to your property once a
    long-term recovery plan is approved. I cannot at this time, however, tell you
    when this final decision will be made."
 
•   TVA sent 135 “diminished value” letters which stated, “In reviewing your
    request, we considered whether there is physical damage to your property,
    the location of your property in relation to the ash spill, and the location of
    your property with respect to areas impacted by current recovery efforts.
    Based on our review of these criteria, we have determined that TVA will not
    offer compensation for any claimed diminished value of your property.”

While the officials we interviewed noted that TVA overall has done a good job of
providing information, being responsive to questions and concerns, and meeting
the needs of victims, concern was expressed by some Roane County residents
about a lack of communication from TVA regarding the property acquisition
criteria. Some residents state that TVA did not respond to their claim in a timely
manner. Many of these claims are those that lie outside the boundaries of what
TVA has determined to be the affected zone. According to Roane County
officials, TVA has not fully communicated its claims policy. In addition, TVA has
raised settlement expectations of some claimants by not making claims decisions
in a timelier manner. When these concerns were discussed with the SVP,
Corporate Responsibility and Diversity (CR&D), he stated communication
improvement opportunities exist and the time needed to respond to claims may
have raised some expectations about potential settlements. However, the basis
for purchasing properties impacted by the spill and the overall claims process

Inspection 2008-12283-01                                                       Page 20
Office of the Inspector General                                    Inspection Report


were communicated. After discussion with the SVP CR&D, we agree aspects of
the individual claim negotiation and settlement process involve sensitive and
confidential information which cannot be disclosed. This continues to be a hard
spot going forward in TVA's efforts to communicate with the public. As noted
above, denial, deferral, and diminished value letters have just been recently
issued to claimants.

Recommendation
TVA should continue to work with the committees and local residents to improve
the communications related to TVA’s property acquisition and claims process.

Management's Response - TVA management agreed with the recommendation
for TVA to continue to work with the communities and local residents to improve
the communications related to TVA's efforts with property acquisition and claims
process.

(The complete text of the comments provided by the SVP, OE&R, is provided in
Appendix C.)

Auditor's Comments - We concur with TVA management's actions or planned
actions.




Inspection 2008-12283-01                                                   Page 21
                                                                      APPENDIX A
                                                                       Page 1 of 1

                  OBJECTIVE, SCOPE, AND METHODOLOGY

The objectives of our overall review are to determine (1) the causes of the spill,
(2) the adequacy of TVA's response to the spill, and (3) what TVA can do to
assure the public that a similar spill will not occur again at this or any other TVA
plant. This report addresses (1) TVA's initial emergency response, including
implementation and utilization of the National Incident Management System
(NIMS); (2) TVA’s actions to quickly respond to the media; and (3) reparations to
the victims. To achieve the objectives of this interim report, we:

•   Conducted interviews with selected TVA management, TVA staff assigned to
    the ash spill recovery, key community leaders, and TVA consultants.

•   Obtained and reviewed the KIF Emergency Response Plan, the Agency
    Emergency Response Plan, and National Incident Management System
    (NIMS) information.

•   Documented TVA actions to facilitate the communication of information to the
    victims, public and media and reviewed media articles and TVA statements.

•   Performed walkdowns of KIF site.

•   Obtained and reviewed engineering, emergency response/recovery, and
    other documentation pertaining to the KIF ash spill (e.g., photographs,
    permits, recovery plans, community outreach documents, engineering
    drawings, claims information, etc.)

•   Attended key TVA meetings, which included amongst others TVA's
    consultants, TDEC, EPA, and U.S. Fish and Wildlife Service.

This review was conducted in accordance with the Quality Standards for
Inspections.
APPENDIX B
 Page 1 of 6
APPENDIX B
 Page 2 of 6
APPENDIX B
 Page 3 of 6
APPENDIX B
 Page 4 of 6
APPENDIX B
 Page 5 of 6
APPENDIX B
 Page 6 of 6
APPENDIX C
 Page 1 of 4
APPENDIX C
 Page 2 of 4
APPENDIX C
 Page 3 of 4
APPENDIX C
 Page 4 of 4
